CERTIFICATE OF WORD COUNT
No. TBD
Anthony Vetri,
Petitioner,
v.
United States of America,
Respondent.
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Anthony Vetri Petition
Writ of Certiorari contains 6546 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
for

I declare under penalty of perjury that the foregoing is true and correct.

Lucas'DeDeus
January 20, 2021

SCP Tracking: Vetri-Cover White

